VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Inspection of

                                                                    VA Regional Office

                                                                     Columbia, South

                                                                        Carolina





                                                                                   August 7, 2014
                                                                                    14-01253-208

                                 ACRONYMS



FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SMC          Special Monthly Compensation
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline)

                  Report Highlights: Inspection of VA
                  Regional Office Columbia, SC

Why We Did This Review                            cases because management did not prioritize
                                                  this work.
The Veterans Benefits Administration (VBA)
has 56 VA Regional Offices (VAROs) and a          VSC management considered benefit
Veterans Service Center (VSC) in Cheyenne,        reduction delays procedural deficiencies, not
Wyoming, that process disability claims and       errors.     Management stated the delays
provide a range of services to veterans. We       occurred because VBA leadership directed
evaluated the Columbia VARO to see how            the VARO to focus on other national
well it accomplishes this mission.       OIG      priorities. Moreover, management indicated
benefits inspectors conducted on-site work at     it had the discretion to grant staff extensions
the VARO in March 2014.                           to complete this work, though we found the
                                                  extensions unmerited given the financial
What We Found                                     risks      associated       with       potential
                                                  overpayments.
Overall, VARO staff did not accurately
process 36 (40 percent) of 89 disability claims   What We Recommended
reviewed. We sampled claims we considered
at higher risk of processing errors, thus these   We recommended the VARO Director
results do not represent this VARO’s overall      implement a plan to ensure staff take timely
disability claims processing accuracy rate.       action on reminder notifications and take
Claims processing that lacks compliance with      appropriate action on the 658 temporary
VBA procedures can risk paying inaccurate         100 percent disability evaluations remaining
financial benefits.                               from our inspection universe. The Director
                                                  should ensure staff receive training on
Specifically, 22 of 29 temporary 100 percent      properly completing TBI claims, SMC
disability    evaluations  reviewed     were      benefits, and SAOs, and implement a plan to
inaccurate, generally because staff did not       ensure prompt action on rating reductions.
timely process reminder notifications for
medical reexaminations. Staff incorrectly         Agency Comments
processed 10 of 30 traumatic brain injury
(TBI) claims, primarily by using insufficient     The Columbia VARO Director concurred
medical examination reports. VARO staff           with all recommendations. We will follow
also incorrectly processed 4 of 30 special        up on these actions as deemed appropriate.
monthly compensation (SMC) claims due to a        We have addressed the Director’s technical
lack of training.                                 comments as appropriate throughout this
                                                  report.
Three of 11 Systematic Analyses of
Operations (SAOs) were incomplete because
management did not provide adequate training
to ensure staff completed the SAOs correctly.               LINDA A. HALLIDAY
VARO staff did not timely or accurately                  Assistant Inspector General
complete 18 of 30 proposed benefits reduction            for Audits and Evaluations
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1

Results and Recommendations ........................................................................................................2

    I. Disability Claims Processing...................................................................................................2
    Finding 1             Columbia VARO Needs To Improve Disability Claims Processing
                          Accuracy..............................................................................................................2

    Recommendations .....................................................................................................................10

    II. Management Controls ..........................................................................................................11
    Finding 2              Columbia VARO Lacked Adequate Oversight To Ensure Complete SAOs ....11
    Recommendation.......................................................................................................................11
    Finding 3              Columbia VARO Needs To Ensure Prompt Action On Proposed Benefits
                           Reductions.........................................................................................................12

    Recommendation.......................................................................................................................14

Appendix A                 VARO Profile and Scope of Inspection ............................................................15
Appendix B                 Inspection Summary..........................................................................................17
Appendix C                 VARO Director’s Comments............................................................................18
Appendix D                 OIG Contact and Staff Acknowledgments........................................................21
Appendix E                 Report Distribution ...........................................................................................22
                                                                Inspection of VARO Columbia, SC



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other               The following appendixes provide additional information:
Information
                    	 Appendix A includes details on the VARO and the scope of our
                       inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Columbia VARO Director’s comments on a
                       draft of this report.




VA Office of Inspector General                                                                1
                                                                           Inspection of VARO Columbia, SC



                       RESULTS AND RECOMMENDATIONS
                       I. Disability Claims Processing

Claims                 The OIG Benefits Inspection team focused on accuracy in processing
Processing             temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy               claims, and special monthly compensation (SMC) and ancillary benefits. We
                       evaluated these claims processing issues and their impact on veterans’
                       benefits.

Finding 1	             Columbia VARO Needs To Improve Disability Claims Processing
                       Accuracy

                       The Columbia VARO did not consistently process temporary 100 percent
                       disability evaluations, TBI-related cases, or entitlements to SMC benefits.
                       Overall, VARO staff incorrectly processed 36 of the total 89 disability
                       claims we sampled, resulting in 189 improper monthly payments to
                       11 veterans totaling $267,108.

                       We sampled claims related only to specific conditions that we considered at
                       higher risk of processing errors. As a result, the errors identified do not
                       represent the universe of disability claims or the overall accuracy rate at this
                       VARO. The table below reflects the errors affecting, and those with the
                       potential to affect, veterans’ benefits processed at the Columbia VARO.

                   Table 1. Columbia VARO Disability Claims Processing Accuracy
                                                 Claims Inaccurately      Claims Inaccurately
                                                                                                  Total Claims
                                                   Processed That         Processed With the
             Type of Claim        Reviewed                                                        Inaccurately
                                                 Affected Veterans’       Potential To Affect
                                                                                                   Processed
                                                      Benefits             Veterans’ Benefits
          Temporary 100
          Percent Disability          29                    6                      16                   22
          Evaluations
          TBI Claims                  30                    1                       9                   10
          SMC and Ancillary
                                      30                    4                       0                    4
          Benefits
           Total                      89                   11                      25                   36
            Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at least
            18 months, TBI disability claims completed in the first quarter fiscal year (FY) 2014, and SMC and
            ancillary benefits claims completed in calendar year 2013




VA Office of Inspector General                                                                                   2
                                                                Inspection of VARO Columbia, SC


Temporary           VARO staff incorrectly processed 22 of 29 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a veteran’s service-connected disability following
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination. VSC staff then have 30 days to process the reminder
                    notification by establishing an appropriate control to initiate action.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed 6 of the 22 processing errors we
                    identified affected benefits and resulted in 75 improper monthly payments to
                    6 veterans totaling approximately $146,722. These improper payments
                    occurred from December 2010 to February 2014. Following are descriptions
                    of these errors:

                    	 In October 2010, VARO staff received a system-generated reminder
                       notification to request a medical reexamination to reevaluate a veteran’s
                       prostate cancer.      VARO staff scheduled the reexamination in
                       January 2014 and received the medical report in February 2014. As of
                       March 2014, VARO staff had not completed this claim. As a result, VA
                       overpaid this veteran $68,935 spanning a period of 35 months.
                    	 VARO staff did not propose to reduce a veteran’s temporary 100 percent
                       evaluation     for     Non-Hodgkin’s       lymphoma        when      a
                       January 29, 2013 reexamination report showed that the veteran’s
                       condition was in remission. As a result, VA overpaid the veteran
                       $43,487 spanning a period of 18 months.
                    	 A Rating Veterans Service Representative (RVSR) granted service
                       connection for a veteran’s disability and did not accurately evaluate the
                       severity of the disability. As a result, VA overpaid the veteran
                       $22,104 spanning a period of 15 months.
                    	 On April 30, 2013, VSC staff proposed to reduce a veteran’s temporary
                       100 percent evaluation for prostate cancer. As of March 2014, VSC staff
                       had not reduced the evaluation and the veteran continued to receive
                       monthly benefits at the 100 percent disability rate. As a result, VA has
                       overpaid the veteran $7,439 spanning a period of 5 months.



VA Office of Inspector General                                                                3
                                                                 Inspection of VARO Columbia, SC


                    	 An RVSR granted service connection for prostate cancer on
                       January 21, 2011. However, evidence in the claims folder showed the
                       correct date for service connection was December 21, 2010. As a result,
                       VA underpaid the veteran approximately $2,823 over a period of
                       1 month.
                    	 VSC staff received a system-generated reminder notification on August
                       8, 2013, indicating the veteran needed a reevaluation for his prostate
                       cancer condition. As of March 2014, VSC staff had not requested the
                       medical reexamination.      As a result, VA overpaid the veteran
                       $1,935 over a period of 1 month.

                    The remaining 16 of the total 22 errors had the potential to affect veterans’
                    benefits. We could not determine whether the evaluations would have
                    continued because the veterans’ claims folders did not contain the medical
                    evidence needed to evaluate each case. Twelve of the 16 errors occurred
                    when VSC staff received reminder notifications but did not schedule medical
                    reexaminations as required. Without current medical evidence, neither we
                    nor VARO staff could determine the correct disability evaluations. Details
                    follow on the remaining four cases:

                    	 On June 25, 2013, VSC staff received a timely request from a veteran for
                       a personal hearing in response to a proposed benefits reduction. As of
                       March 2014, staff had not scheduled a hearing because this work was not
                       considered a priority. As a result of the delay, the veteran had waited
                       8 months to provide evidence to refute the proposed benefits reduction.
                       Until VARO staff complete the requested hearing, no action can be taken
                       to reevaluate the claim, and monthly benefits will continue to be paid at
                       the 100 percent disability rate.
                    	 On October 18, 2013, VSC staff received a medical reexamination report
                       required to reevaluate a veteran’s prostate cancer. As of March 2014,
                       VARO staff had taken no action to reevaluate the claim based on the
                       update on the veteran’s condition. Until staff reevaluate the claim to
                       determine whether the veteran continues to warrant a 100 percent
                       disability evaluation, payments will continue at the existing rate and
                       improper payments may occur.
                    	 On September 6, 2013, an RVSR proposed reducing a veteran’s
                       temporary 100 percent evaluation for residuals of prostate cancer to
                       60 percent disabling. As of March 2014, VARO staff had taken no
                       action on the proposed reduction and the veteran was still receiving
                       monthly benefits at the 100 percent disability rate. These improper
                       payments will continue until VSC staff take timely action to reduce the
                       benefits as appropriate.
                    	 An RVSR incorrectly granted a temporary 100 percent disability
                       evaluation for chronic lymphocytic leukemia although this condition
                       warranted a permanent 100 percent evaluation. As a result, the veteran

VA Office of Inspector General                                                                 4
                                                                   Inspection of VARO Columbia, SC


                        did not receive entitlement to the additional benefit of Dependents’
                        Educational Assistance, as required by VBA policy.

                    Generally, processing inaccuracies occurred because VARO management
                    did not have the resources to cover all priorities to ensure timely action on
                    these cases. An average of 11 months elapsed from the time staff should
                    have scheduled these medical reexaminations until February 1, 2014. The
                    initial responses to the processing inaccuracies received from VARO staff
                    noted, “… the delay in final processing is a result of directions from higher
                    authority…” to complete specific cases. In fact, management indicated VBA
                    had directed that all RVSRs devote their time to eliminating claims from the
                    backlog for the remainder of the fiscal year. As a result, the VARO may
                    have continued benefits payments and overpaid veterans who were no longer
                    entitled to temporary 100 percent evaluations. We provided VARO
                    management with 658 cases remaining from our universe of 687 for its
                    review to determine if action is required.

                    VSC subject matter experts reviewed the 22 errors we identified and
                    management initially concurred with 19. Management later rescinded the
                    initial response and nonconcurred with 11 errors. When asked why the
                    office changed its response, VSC officials replied that the VSC Manager did
                    not have the opportunity to review and approve the initial response.

                    Eight of the 11 nonconcurrences involved delays in establishing controls to
                    schedule future medical reexaminations. Management informed us that there
                    was no timeframe for establishing a control to prompt future action to
                    schedule a medical reexamination. Management stated that timeliness in
                    such matters is relative to workload, prioritization of workload, and staffing.
                    Nonetheless, VBA policy states that staff have 30 days to schedule a
                    reexamination after receiving a reminder notification.

                    The remaining three nonconcurrences involved delays in processing
                    proposed benefits reductions. VSC management explained, “The Columbia
                    VARO processes all aspects of the non-rating workload as timely as possible
                    with consideration to all directed reviews, national initiatives, and the time
                    and resources required to accomplish all responsibilities under the non-rating
                    umbrella.” VSC management indicated that per VBA policy, it can grant
                    staff extensions to complete this work if certain circumstances exist, such as
                    time to develop a claim for additional evidence or to schedule a hearing for a
                    claimant. However, none of the three instances identified involved the types
                    of circumstances that would merit extensions to complete proposed benefits
                    reductions.

                    The processing delays we identified are not without consequence. Failure to
                    prioritize this work has resulted in, and will continue to result in, inaccurate
                    and unnecessary benefits payments if left unaddressed.                 Financial
                    stewardship of the benefits delivery is important and necessary to ensure

VA Office of Inspector General                                                                    5
                                                                  Inspection of VARO Columbia, SC


                    accountability and to use entitlement authority properly and in compliance
                    with policies and procedures.

Follow Up to        In our previous report, Inspection of the VA Regional Office, Columbia,
Prior VA OIG        South Carolina (Report No. 11-00236-257, August 24, 2011), we indicated
Inspection
                    that VARO staff incorrectly processed 21 of 30 temporary 100 percent
                    disability evaluations we reviewed. Most of the processing inaccuracies
                    occurred because staff did not enter suspense diaries in the electronic system
                    to ensure they received reminder notifications to schedule medical
                    reexaminations. VARO management lacked an oversight procedure in place
                    to ensure VSC staff established suspense diaries as reminders of the need for
                    reexaminations. We did not provide a recommendation in this inspection
                    report as VBA had implemented a national review plan to address this issue.
                    To assist in implementing the agreed upon review, we provided the VARO
                    with 397 cases remaining from the universe of 427 temporary 100 percent
                    disability evaluations identified.

                    During this inspection, we found cases where VSC staff delayed scheduling
                    future medical reexaminations; however, we identified no cases where staff
                    did not input suspense diaries in the electronic system to generate reminders
                    to follow up on temporary 100 percent disability evaluations. As such, we
                    made no further recommendation in this area.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our report, Systemic Issues Reported
                    During Inspections at VA Regional Offices (Report No. 11-00510-167,
                    May 18, 2011), VBA agreed to develop and implement a strategy for
                    ensuring the accuracy of TBI claims decisions. In May 2011, VBA provided
                    guidance to VARO Directors to implement a policy requiring a second
                    signature on each TBI case an RVSR evaluates until the RVSR demonstrates
                    90 percent accuracy in TBI claims processing. The policy indicates second-
                    signature reviewers come from the same pool of staff as those used to
                    conduct local station quality reviews.

                    VARO staff incorrectly processed 10 of 30 TBI claims we reviewed. In one
                    case that affected a veteran’s monthly benefits, an RVSR incorrectly
                    assigned separate evaluations for TBI-related headaches. Assigning two
                    evaluations based on the same symptomology is a violation of VBA policy.
                    As a result of the inaccuracy, VA overpaid the veteran approximately

VA Office of Inspector General                                                                  6
                                                                  Inspection of VARO Columbia, SC


                    $3,990 spanning a period of 17 months. These improper payments occurred
                    from September 2012 to February 2014.

                    The remaining nine inaccuracies had the potential to affect veterans’
                    benefits. Following are descriptions of these errors:

                    	 In seven cases, VSC staff used insufficient VA medical examination
                       reports to evaluate veterans’ disabilities. Staff did not return these
                       insufficient examination reports to the issuing clinics or healthcare
                       facilities, as required by VBA policy. Neither VSC staff nor we can
                       ascertain all of the residual disabilities of TBI without adequate or
                       complete medical examination reports.
                    	 In one case, an RVSR incorrectly evaluated TBI residuals using
                       symptoms the medical examiner attributed to a coexisting mental
                       condition instead of only those symptoms related to the TBI. In addition,
                       VSC staff used an insufficient TBI medical examination report to
                       evaluate the veteran’s headaches instead of returning it for correction, as
                       required by VBA policy.           Because of the veteran’s multiple
                       service-connected disabilities, the inaccuracies did not affect the
                       veteran’s monthly benefits. However, they had the potential to affect
                       future benefits if the veteran’s other service-connected disabilities
                       worsen or if service connection is granted for a new disability.
                    	 In one case, an RVSR incorrectly granted service connection for residuals
                       of a TBI when the veteran’s service records did not contain a verified
                       in-service event, as required by VBA policy. Because of the veteran’s
                       multiple service-connected disabilities, this error did not affect the
                       veteran’s monthly benefits. However, it has the potential to affect future
                       benefits if the veteran’s other service-connected disabilities worsen or if
                       service connection is granted for a new disability.

                    Generally, the TBI processing errors we identified occurred because VSC
                    staff misinterpreted VBA policy for processing TBI claims. Interviews with
                    management and staff revealed they used their own interpretations of the
                    policy to decide these claims. Some staff incorrectly believed they had the
                    authority to separately evaluate TBI and coexisting mental disorders when
                    VA examiners did not differentiate which symptoms were attributable to
                    each condition as required. A review of the VARO’s training records
                    showed the last training on processing TBI claims occurred between July and
                    October 2012. As a result of these issues, veterans with these disability
                    claims may not have always received accurate benefits.

                    The Columbia VARO did not concur with 1 of the 10 TBI errors we
                    identified. In this case, an RVSR used an insufficient medical examination
                    report and over-evaluated a veteran’s TBI residuals with headaches.
                    Additionally, the RVSR did not request a separate medical examination for
                    headaches, as required. Management agreed the veteran’s TBI was over-

VA Office of Inspector General                                                                  7
                                                                   Inspection of VARO Columbia, SC


                    evaluated, but did not concur that the evaluation should be reduced as it
                    would not affect the veteran’s current monthly benefits. Had VARO staff
                    requested a separate examination for headaches, the result could have
                    increased the veteran’s monthly benefits. As a result, VBA lacks assurance
                    that the veteran may not be receiving the highest overall evaluation for this
                    disability.

Follow Up to        In our previous report, Inspection of the VA Regional Office, Columbia,
Prior VA OIG        South Carolina (Report No. 11-00236-257, August 24, 2011), we determined
Inspection          that errors in processing TBI claims occurred due to inadequate quality
                    assurance. In response to our recommendation, the VARO Director agreed
                    to provide training on proper TBI claims processing. Further, the Director
                    said that TBI claims would require a second signature by an RVSR, and a
                    third signature by VSC management or a member of the VARO’s quality
                    review team. The OIG closed this recommendation based on a review of the
                    VARO’s policy and training documents.

                    Interviews with VSC staff revealed that the additional levels of review of
                    TBI-related claims were effective and had improved the overall quality of
                    TBI evaluations. However, VARO management discontinued the local
                    third-signature policy based on their assessment that staff had demonstrated
                    adequate proficiency to evaluate TBI claims.              Yet, the national
                    second-signature policy remained in force at the VARO. Additionally, based
                    on our previous inspection, VSC management developed a flowchart for
                    RVSRs outlining the required steps that needed to be taken to process TBI
                    claims. On April 9, 2014, VSC management provided the OIG with the
                    revised flowchart, indicating that changes had been made based on findings
                    from our current inspection. VSC management stated the flowchart would
                    help assist RVSRs in processing TBI claims. We did not test the results of
                    TBI claims processed after implementation of the flowchart and cannot make
                    an assessment as to its effectiveness in assisting RVSRs process TBI claims.
Special Monthly     As the concept of rating disabilities evolved, VBA realized that for certain
Compensation        types of disabilities, the basic rate of compensation was not sufficient for the
and Ancillary
Benefits
                    level of disability present. Therefore, VBA established SMC to recognize
                    the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb, the
                    inability to naturally control bowel and bladder functions, or the need to rely
                    on others for daily life activities like bathing or eating. Generally, VBA
                    grants entitlement to SMC when the following conditions exist:

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance

VA Office of Inspector General                                                                    8
                                                                  Inspection of VARO Columbia, SC


                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that, without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under section 35, title 38, United
                       States Code
                    	 Specially Adapted Housing Grant
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement to these benefits. We focused
                    our review on whether VARO staff accurately processed entitlement to SMC
                    and ancillary benefits associated with anatomical loss, loss of use of two or
                    more extremities, or bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 4 of 30 claims involving SMC and
                    ancillary benefits—all 4 affected veterans’ benefits. The errors resulted in
                    underpayments totaling approximately $99,321 and an overpayment of
                    approximately $17,075, representing 97 improper monthly payments paid
                    from July 2010 to February 2014.

                    In the case of the overpayment, an RVSR incorrectly assigned entitlement to
                    SMC for bilateral blindness. As a result, VA overpaid the veteran
                    approximately $17,075 over 14 months.

                    The remaining three errors resulted in underpayments to veterans. Details of
                    those errors follow:

                    	 An RVSR did not grant aid and attendance for a veteran’s loss of use of
                       both legs, along with a total loss of control of bowel and bladder
                       functions, as required by VBA policy. As a result, VA underpaid the
                       veteran approximately $88,875 over a period of 3 years and 7 months.
                    	 An RVSR did not grant SMC for a veteran’s additional permanent
                       disability independently evaluated at 50 percent disabling, as required by
                       VBA policy. As a result, the veteran was underpaid approximately
                       $9,132 over a period of 2 years and 11 months. The RVSR also did not
                       grant entitlement to automobile and adaptive equipment, a benefit worth

VA Office of Inspector General                                                                    9
                                                                   Inspection of VARO Columbia, SC


                        up to $19,817, as well as special home adaptation, a benefit worth up to
                        $13,511.
                    	 An RVSR did not grant a higher level of SMC for a veteran’s additional
                       permanent disability independently evaluated at 100 percent disabling, as
                       required by VBA policy. As a result, the veteran was underpaid
                       $1,314 over a period of 5 months.

                    Errors related to SMC and ancillary benefits were due to a lack of training.
                    VARO training records for FY 2013 did not include SMC training, and
                    management and staff stated they needed additional instruction. As a result
                    of the lack of staff training, veterans did not always receive accurate benefits
                    payments. The training deficiencies identified, if left unaddressed, increase
                    the risks to VBA efforts to consistently and accurately process SMC and
                    ancillary benefits claims.

                    Recommendations

                    1.	 We recommended the Columbia VA Regional Office Director develop
                        and implement a plan to ensure timely and appropriate action on
                        reminder notifications for medical reexaminations.

                    2.	 We recommended the Columbia VA Regional Office Director conduct a
                        review of the 658 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.

                    3.	 We recommended the Columbia VA Regional Office Director ensure
                        staff receive training on the proper processing of traumatic brain injury
                        claims and implement a plan to assess the effectiveness of that training.

                    4.	 We recommended the Columbia VA Regional Office Director ensure
                        staff receive training on the proper processing of special monthly
                        compensation and ancillary benefit claims and implement a plan to assess
                        the effectiveness of that training.

Management          The Director concurred with our recommendations and the VSC will develop
Comments            a process to improve timeliness of medical reexaminations. The VSC began
                    reviewing the temporary 100 percent disability evaluations remaining from
                    our inspection universe and expects to complete this review by the end of
                    September 2014. VSC staff will receive training on TBI claims, SMC, and
                    ancillary benefits with an anticipated completion date of October 2014. A
                    mechanism to assess the effectiveness of this training will be determined
                    upon completion of the training.
OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.


VA Office of Inspector General                                                                   10
                                                               Inspection of VARO Columbia, SC


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and propose corrective actions.
                    VARO management must prepare annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC Manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

Finding 2           Columbia VARO         Lacked     Adequate     Oversight     To   Ensure
                    Complete SAOs

                    Three of the 11 SAOs were incomplete (missing required elements). VSC
                    management did not provide adequate training to ensure staff completed the
                    SAOs in accordance with VBA policy. As a result, management may not
                    have adequately identified existing and potential problems for corrective
                    actions to improve VSC operations.

                    Management did not ensure all required SAO elements were included
                    because they did not provide adequate oversight or training of VSC staff
                    tasked with completing the SAOs. VSC management stated that although
                    they provided staff with VBA policy and a copy of previously completed
                    SAOs, they did not provide training or a checklist to ensure all SAO
                    elements were addressed. Further, the Compensation Service site visit team
                    completed a review of the VARO’s SAOs in February 2014; however, the
                    team did not identify any weaknesses associated with the SAO process.

                    The Claims Processing Timeliness SAO was an example of an incomplete
                    SAO. We identified multiple instances among proposed benefits reduction
                    cases we reviewed where VARO staff did not take timely action to reduce
                    payments as appropriate. If the Columbia VARO had completed the Claims
                    Processing Timeliness SAO, it could have detected this problem earlier and
                    developed recommendations to resolve it before we did as part of our
                    inspection.

                    Recommendation

                    5.	 We recommend the Columbia VA Regional Office Director ensure that
                        staff receive training on VBA policy regarding the purpose and
                        requirements for completing Systematic Analyses of Operations.


VA Office of Inspector General                                                             11
                                                                  Inspection of VARO Columbia, SC


Management          The VARO Director concurred with our recommendation and anticipates
Comments            completion of SAO training by July 31, 2014.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.

Benefits            VBA policy provides for compensation to veterans for conditions they
Reductions          incurred or aggravated during military service. The amount of monthly
                    compensation to which a veteran is entitled may change because his or her
                    service-connected disability may improve. Improper payments associated
                    with benefits reductions generally occur when beneficiaries receive
                    payments to which they are not entitled because VAROs do not take the
                    actions required to ensure correct payments for their levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in a reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs must make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation in order
                    to minimize overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefits reductions. The new policy no longer
                    includes the requirement for VARO staff to take “immediate action” to
                    process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits.

Finding 3           Columbia VARO Needs To Ensure Prompt Action On Proposed
                    Benefits Reductions

                    VARO staff delayed or incorrectly processed 18 of 30 cases involving
                    benefits reductions—14 affected veterans’ benefits and 4 had the potential to
                    affect veterans’ benefits. These errors occurred due to a lack of emphasis on
                    timely processing benefits reductions. Processing inaccuracies resulted in
                    overpayments totaling approximately $83,745, representing 90 improper
                    monthly payments to 14 veterans from April 2013 to February 2014.

Processing          Processing delays occurred in 16 of 30 claims that required rating decisions
Delays              to reduce or discontinue benefits. In the case with the most significant
                    overpayment, VSC staff sent a letter to a veteran on December 10, 2012,
                    proposing to reduce the disability evaluation for the veteran’s prostate

VA Office of Inspector General                                                                 12
                                                                  Inspection of VARO Columbia, SC


                    condition. The due process period expired on February 13, 2013. However,
                    staff did not take action to reduce the evaluation until November 25, 2013.
                    As a result of the delay, VA overpaid the veteran $16,164 spanning a period
                    of 9 months.

                    In 14 of 16 cases, processing delays averaged 6 months from the time staff
                    should have taken action to reduce the benefits for the 14 cases. In the
                    remaining two cases, we could not define a date range for the delays because
                    one case involved VSC staff not scheduling an immediate medical
                    reexamination, and the other case involved not timely scheduling a hearing
                    for the veteran to present evidence in response to the proposal to reduce his
                    benefits.

                    Although the VARO’s Workload Management Plan directed staff to focus on
                    processing rating reduction cases, delays occurred because the VARO did
                    not consider these cases its first priority. The VSC Manager noted that rating
                    reductions were not a top priority as VBA leadership redirected attention to
                    completing other work related to national initiatives. Further, interviews
                    with staff noted that these cases were easy to process and that, on average,
                    they could complete two to four rating reductions in just 1 hour. As a result
                    of the processing delays, veterans received erroneous benefits payments.

Accuracy            VARO staff incorrectly processed 2 of 30 cases involving proposed benefits
Errors              reductions. The errors involved VSC staff incorrectly reducing a disability
                    evaluation and establishing an incorrect medical reexamination date;
                    however, these errors did not impact the veterans’ current benefits but have
                    the potential to affect future benefits. Both errors were unique and did not
                    constitute a common trend, pattern, or systemic issue. Therefore, we made
                    no recommendation for improvement in this area.

                    VARO management nonconcurred with 13 of the processing delays we
                    identified, stating that “… only outcome-related deficiencies found under the
                    review are recorded as errors. Procedural deficiencies generally do not rise
                    to the level of errors.” Further, management stated that the VARO had
                    prioritized work according to national “surge initiatives.” VSC management
                    indicated that VBA policy allowed them to grant staff extensions to complete
                    this work if certain circumstances existed, such as time to develop a claim
                    for additional evidence or schedule a hearing for a veteran. In the
                    nonconcurred cases that included processing delays, none met the provisions
                    outlined in VBA’s policy that allow for an extension to complete this work.

                    The processing delays we identified were not merely procedural deficiencies.
                    As demonstrated, failure to prioritize this work has resulted in, and will
                    continue to result in, inaccurate and unnecessary benefits payments if left
                    unaddressed. The amount of the inaccurate payments continues to increase
                    as recurring benefit payments are processed automatically each month.


VA Office of Inspector General                                                                 13
                                                             Inspection of VARO Columbia, SC


                    Recommendation

                    6.	 We recommended the Columbia VA Regional Office Director develop
                        and implement a plan to ensure prompt action on benefits reduction
                        cases.

Management          The VARO Director concurred with our recommendation and will develop a
Comments            workload process to improve the processing of benefits reduction cases.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                           14
                                                                 Inspection of VARO Columbia, SC


Appendix A          VARO Profile and Scope of Inspection

Organization        The Columbia VARO administers a variety of services and benefits,
                    including compensation and pension benefits; home loan guaranty;
                    education; vocational rehabilitation and employment assistance; specially
                    adapted housing grants; benefits counseling; public affairs; and outreach to
                    homeless, minority, and women veterans.

Resources           As of February 2014, the Columbia VARO reported a staffing level of
                    585.5 full-time employees. Of this total, the VSC had 237.5 employees
                    assigned.

Workload            As of February 2014, VBA reported 16,715 pending compensation claims.
                    On average claims were pending 180.7 days—65.7 days more than the
                    national target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, Wyoming, that process
Methodology         disability claims and provide a range of service to veterans. We evaluated
                    the Columbia VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 29 (4 percent) of 687 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database.            These cases
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    January 21, 2014. This is generally the longest period a temporary
                    100 percent disability evaluation may be assigned without review, according
                    to VBA policy. We provided VARO management with 658 claims
                    remaining from our universe of 687 for its review. We reviewed
                    30 (40 percent) of 75 disability claims related to TBI that the VARO
                    completed from October through December 2013.                We examined
                    30 (29 percent) of 104 veterans’ claims available involving entitlement to
                    SMC and related ancillary benefits that VARO staff completed from January
                    1, 2013, through December 31, 2013.

                    Prior to VBA consolidating Fiduciary Activities nationally, each VARO was
                    required to complete 12 SAOs. However, since the Fiduciary consolidation,
                    VAROs are now required to complete 11 SAOs. Therefore, we reviewed
                    11 SAOs related to VARO operations. Additionally, we looked at


VA Office of Inspector General                                                                15
                                                                   Inspection of VARO Columbia, SC


                    30 (12 percent) of 247 completed claims that proposed reductions in benefits
                    from October through December 2013.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is a VBA program management
                    decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the 119 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI claims, SMC and ancillary benefits, and completed claims related to
                    benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    As reported by VBA’s STAR program as of February 2014, the overall
                    claims-based accuracy of the VARO’s compensation rating-related decisions
                    was 95 percent. We did not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                   16
                                                                                Inspection of VARO Columbia, SC


Appendix B             Inspection Summary

                       Table 2 reflects the operational activities inspected, applicable criteria, and
                       whether or not we had reasonable assurance of VARO compliance.

                            Table 2. Columbia VARO Inspection Summary
       Operational                                                                              Reasonable
        Activities                                    Criteria                                  Assurance of
        Inspected                                                                               Compliance
     Disability
     Claims
     Processing
     Temporary             Determine whether VARO staff properly reviewed temporary
     100 Percent           100 percent disability evaluations. (38 CFR 3.103(b)) (38
     Disability            CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart                  No
     Evaluations           ii, Chapter 2, Section J) (M21-1MR Part III, Subpart iv,
                           Chapter 3, Section C.17.e)
     Traumatic Brain       Determine whether VARO staff properly processed claims for
     Injury Claims         service connection for all disabilities related to in-service TBI.       No
                           (FL 08-34 and 08-36) (Training Letter 09-01)
     Special Monthly       Determine whether VARO staff properly processed SMC and
     Compensation          correctly granted entitlement to ancillary benefits. (38 CFR
     and Ancillary         3.350, 3.352, 3.807, 3.808, 3.809, 4.63, and 4.64) (M21-1MR              No
     Benefits              IV.ii.2.H and I)
     Management
     Controls
     Systematic            Determine whether VARO staff properly performed formal
     Analysis of           analyses of their operations through completion of SAOs.                 No
     Operations            (M21-4, Chapter 5)
     Benefits              Determine whether VARO staff timely and accurately
     Reductions            processed disability evaluation reductions or terminations.
                           (38 CFR 3.103(b)(2), 38 CFR 3.105(e), 38 CFR 3.501, M21­
                           1MR.IV.ii.3.A.3.e, M21-1MR.I.2.B.7.a, M21-1MR.I.2.C,                     No
                           M21-1MR.I.ii.2.f, M21-4, Chapter 2.05(f)(4), Compensation
                           & Pension Bulletin October 2010)
     Source: VA OIG
     CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                                 17
                                                                          Inspection of VARO Columbia, SC


Appendix C              VARO Director’s Comments


                 Department of
                 Veterans Affairs
                                                            Memorandum
         Date:        July 1, 2014

         From:        Director, VA Regional Office Columbia, South Carolina

         Subj:        Inspection of the VA Regional Office, Columbia, South Carolina

           To:        Assistant Inspector General for Audits and Evaluations (52)


                 1.   The Columbia VARO’s comments are attached on the OIG Draft Report:
                      Inspection of the VA Regional Office, Columbia, South Carolina.
                 2.	 Please note we have inserted comments within the body of the draft to
                     clarify or refute specific statements within the report while I have concurred
                     with the recommendations. I take exception to any reference to a “lack of
                     management oversight” as our RO management is well aware of the entire
                     workload while your staff reviewed a small subset of the work. RO
                     management addresses all of the competing priorities appropriately with
                     the resources available.
                 3.	 Please contact me or VSCM James Ard at 803-647-2351 if any additional
                     questions.

                      (Original signed)
                      Leanne Weldin

                      Director


                      Attachment




VA Office of Inspector General                                                                        18
                                                                          Inspection of VARO Columbia, SC


                                                                                                 Attachment

                                  VARO Columbia OIG SITE VISIT

                                       March 24-27, 2014

                                      RO Response (draft)


                                 We recommend the Columbia VA Regional Office Director develop and
   Recommendation 1              implement a plan to ensure timely and appropriate action on reminder
                                 notifications for medical reexaminations.
         RO Response Concur
                 Status VSC will develop a workload management process to improve the timeliness
 Anticipated            of medical re-examinations. This process will be submitted to the Director’s
 completion:            office NLT EOM July 2014.
 July 31, 2014


                                 We recommend the Columbia VA Regional Office Director conduct a
   Recommendation 2              review of the 658 temporary 100 percent disability evaluations remaining
                                 from our inspection universe and take appropriate action.
         RO Response Concur
                Status Prior to the receipt of the draft report, the Columbia VSC has distributed the
 Anticipated           list of temporary 100 percent evaluations to the segmented lanes. Instructions
 completion:           include the completion of 4 reviews daily for each team. Given the number
 September 30, 2014    of temporary 100 percent evaluations requiring review and in an attempt to
                       balance all other VSC workload priorities, it is estimated that the reviews will
                       be completed end of FY14.

                                 We recommend the Columbia VA Regional Office Director ensure staff
   Recommendation 3              receive training on the proper processing of traumatic brain injury claims
                                 and implement a plan to assess the effectiveness of that training.
         RO Response Concur
                 Status Training was conducted in FY12 and FY 13 IAW the NTC guidelines. The
 Anticipated            local TBI flow chart was revised and incorporated the suggestions and
 completion:            recommendations provided by the VAOIG site visit staff. Columbia VARO
 October 2014           will request Compensation Service provide formal TBI training to all claims
                        processors and quality review specialists. Our request will be submitted NLT
                        July 15, 2014. Pending the outcome of our request, local training will be
                        scheduled if necessary. The mechanism to assess the effectiveness of training
                        will be determined pending the completion of either National or local
                        training.




VA Office of Inspector General                                                                            19
                                                                        Inspection of VARO Columbia, SC




                                 We recommend the Columbia VA Regional Office Director ensure staff
                                 receive training on the proper processing of special monthly
   Recommendation 4
                                 compensation and ancillary benefit claims and implement a plan to assess
                                 the effectiveness of that training.
         RO Response Concur
                 Status Columbia VARO will request Compensation Service provide formal SMC
 Anticipated            and ancillary benefits training to all claims processors and quality review
 completion:            specialists. Our request will be submitted NLT July 15, 2014. Pending the
 October 2014           outcome of our request, local training will be scheduled if necessary. The
                        mechanism to assess the effectiveness of training will be determined pending
                        the completion of either National or local training.

                                 We recommend the Columbia VA Regional Office Director ensure that
   Recommendation 5              staff receive training on VBA policy regarding the purpose and
                                 requirements for completing Systematic Analyses of Operations.
         RO Response Concur
                 Status While we do not agree with the OIG’s methodology or the compliance
 Anticipated            deficiency with VBA policy regarding completion of SAOs, we concur with
 completion:            the recommendation for training to further strengthen the quality of our
 July 31, 2014          SAOs. Training has been scheduled for July 2014 for all VSC managers and
                        MAs. The class will cover the requirements of the M21-4 and a newly
                        developed checklist will be reviewed and distributed at that time.

                                 We recommend the Columbia VA Regional Office Director develop and
   Recommendation 6
                                 implement a plan to ensure prompt action on benefits reduction cases.

         RO Response Concur
                 Status VSC will develop a workload management process to improve the processing
 Anticipated            of benefits reduction cases. This process will be submitted to the Director’s
 completion:            office NLT EOM July 2014.
 July 31, 2014




VA Office of Inspector General                                                                         20
                                                       Inspection of VARO Columbia, SC


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact	      For more information about this report, please
                                        contact the Office of Inspector General at
                                        (202) 461-4720.
                      Acknowledgments   Brent Arronte, Director
                                        Ed Akitomo
                                        Orlan Braman
                                        Bridget Byrd
                                        Vinay Chadha
                                        Michelle Elliott
                                        Scott Harris
                                        Dana Sullivan
                                        Nelvy Viguera Butler




VA Office of Inspector General                                                      21
                                                               Inspection of VARO Columbia, SC


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Southern Area Director
                    VA Regional Office Columbia Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Lindsey Graham, Tim Scott
                    U.S. House of Representatives: James E. Clyburn, Jeff Duncan,
                     Trey Gowdy, Mick Mulvaney, Tom Rice, Mark Sanford, Joe Wilson




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              22
